         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Audit Report




       Improved Data Integrity Needed
       for the Integrated Contracts
       Management System
       Report No. 10-P-0144

       June 14, 2010
Abbreviations

COTS	           Commercial Off-the-Shelf
EAS       	     EPA Acquisition System
EPA 	           U.S. Environmental Protection Agency
FAR       	     Federal Acquisition Regulation
FARA        	   Federal Acquisition Reform Act
FASA 	          Federal Acquisition Streamlining Act
FPDS-NG 	       Federal Procurement Data System – Next Generation
GAO 	           U.S. Government Accountability Office
GSA       	     General Services Administration
ICMS 	          Integrated Contracts Management System
NIST 	          National Institute of Standards and Technology
OAM	            Office of Acquisition Management
OAM-ITSC 	      Office of Acquisition Management – Information Technology
                Service Center
OIG 	           Office of Inspector General
OMB 	           Office of Management and Budget
                       U.S. Environmental Protection Agency 	                                            10-P-0144
                                                                                                      June 14, 2010
                       Office of Inspector General


                       At a Glance
                                                                          Catalyst for Improving the Environment


Why We Did This Review           Improved Data Integrity Needed for the
The Office of Inspector          Integrated Contracts Management System
General contracted with
Williams, Adley & Company,        What Williams, Adley & Company, LLP, Found
LLP, to conduct a data
integrity audit of the           EPA needs to strengthen ICMS data integrity controls to increase the reliability of
Integrated Contracts             the data for management reporting. In particular, ICMS data contain exceptions
Management System (ICMS).        to data quality rules defined in the ICMS data dictionary and OAM-defined
We sought to determine           system checks. ICMS data also contain anomalies that cast suspicion over the
whether data within the ICMS     validity of processed transactions. These anomalies include transactions
complied with the system edit    processed on nonstandard workdays and dollar values that are unusually high.
and validation checks
                                 Furthermore, discrepancies noted between OAM-defined system edit and
designed to control data entry
and quality.                     validation checks and the ICMS data dictionary call into question what actual
                                 information should be entered into the ICMS for certain fields. The above
Background                       conditions are caused by a breakdown in controlling data entry or in maintaining
                                 data and associated system documentation.
The U.S. Environmental
Protection Agency’s (EPA’s)      As noted during our field work, EPA is replacing the ICMS with a new
Office of Acquisition            acquisition system called the EPA Acquisition System (EAS). While it may not
Management (OAM) supports        be practical for EPA to address these weaknesses within the ICMS, EPA should
the procurement needs of         take proactive steps to strengthen its data integrity processes so these similar
program offices throughout       weaknesses do not exist in the EAS.
EPA and utilizes the ICMS to
facilitate that process. The      What Williams, Adley & Company, LLP, Recommends
ICMS generates documents
critical to the procurement      Williams, Adley & Company, LLP, recommends that the Director, OAM:
process and recorded contract
values totaling approximately       •	 Take immediate action to implement recommendations to strengthen
$15 billion for Fiscal Year            plans for migrating data from the ICMS to the EAS as outlined in OIG
2007 and $17.5 billion for             Report No. 10-P-0071, Plans to Migrate Data to the New EPA
Fiscal Year 2008.                      Acquisition System Need Improvement.
                                    •	 Conduct and document a review of the EAS data quality controls to
                                       ensure all required edit checks are identified and recorded in the EAS
For further information,               system documentation and implemented in the system.
contact our Office of               •	 Conduct and document a review of the EAS system development and
Congressional, Public Affairs          program change control procedures to ensure that the EAS data
and Management at                      dictionary is updated as database fields, and corresponding edit and
(202) 566-2391.
                                       validation checks are added or modified within the system. Implement
To view the full report,               all needed changes to the procedures.
click on the following link:
www.epa.gov/oig/reports/2010/    The Agency generally agreed with the findings and recommendations.
20100614-10-P-0144.pdf
                          UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                       WASHINGTON, D.C. 20460


                                                                                      OFFICE OF
                                                                                 INSPECTOR GENERAL



                                              June 14, 2010

MEMORANDUM

SUBJECT:	 Improved Data Integrity Needed for the Integrated Contracts
          Management System
          Report No. 10-P-0144


FROM:	         Rudolph M. Brevard
               Director, Information Resources Management Assessments
               Office of Inspector General

TO: 	          John Gherardini, Deputy Director
               Office of Acquisition Management
               Office of Administration and Resources Management


This is the report on the subject audit conducted by Williams, Adley & Company, LLP
(Williams Adley), on behalf of the Office of Inspector General (OIG) of the U.S. Environmental
Protection Agency (EPA). This report contains findings that describe the problems Williams
Adley identified and corrective actions recommended. This report represents the conclusions of
Williams Adley and does not necessarily represent the final EPA position. Final determinations
on matters in this report will be made by EPA managers in accordance with established audit
resolution procedures.

The estimated cost of this report, which includes contract costs and OIG contract management
oversight, is $424,969.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective actions plan for agreed-upon
actions, including milestone dates. We have no objections to the further release of this report to
the public. This report will be available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact me at (202) 566-0893
or brevard.rudy@epa.gov; or Harry Kaplan, Project Manager, at (202) 566-0898 or
kaplan.harry@epa.gov.
                                         June 14, 2010

MEMORANDUM

SUBJECT: 	 Improved Data Integrity Needed for the Integrated Contracts
           Management System

FROM: 	       Robert J. Fulkerson
              Senior IT Audit Manager
              Williams, Adley & Company, LLP

THRU:	        Rudolph M. Brevard
              Director, Information Resources Management Assessments
              Office of Inspector General

TO: 	         John Gherardini, Deputy Director
              Office of Acquisition Management
              Office of Administration and Resources Management


This memorandum is to inform the U.S. Environmental Protection Agency (EPA) of critical
findings of Williams, Adley, & Company, LLP, that require management action regarding the
improved data integrity needed for the Integrated Contracts Management System.

If you or your staff have any questions regarding this report, please contact Rudolph Brevard at
(202) 566-0893 or brevard.rudy@epa.gov; or Harry Kaplan, Project Manager, at (202) 566-0898
or kaplan.harry@epa.gov.
Improved Data Integrity Needed for the                                                                                             10-P-0144
Integrated Contracts Management System




                                       Table of Contents 

Purpose........................................................................................................................       1 


Background .................................................................................................................          1 


Scope and Methodology ............................................................................................                    1 


Findings .......................................................................................................................      3 


Recommendations......................................................................................................                 4 


Agency Comments and OIG Evaluation ...................................................................                                4 


Status of Recommendations and Potential Monetary Benefits..............................                                               5




Appendices                                                                           

A          Exceptions to Data Dictionary Defined Edit & Validation Checks..............                                               6 


B          Exceptions to OAM Information Technology Service Center 

           Defined Edit & Validation Checks..................................................................                         8


C          Data Anomalies ...............................................................................................             10 


D          Edit & Validation Checks that Require Updating in Data Dictionary..........                                                12 


E          Agency Response ...........................................................................................                16 


F          Distribution ......................................................................................................        18 

                                                                                       10-P-0144


Purpose
We sought to determine whether data within the Integrated Contracts Management System
(ICMS) complied with the system edit and validation checks designed to control data entry and
quality.

Background
The U.S. Environmental Protection Agency’s (EPA’s) Office of Inspector General (OIG)
contracted with Williams, Adley & Company, LLP (Williams Adley), to conduct this audit.
EPA’s Office of Acquisition Management (OAM) supports the procurement needs of program
offices throughout EPA and utilizes the ICMS to facilitate that process. The ICMS generates
documents critical to the procurement process and recorded contract values totaling
approximately $15 billion for fiscal year 2007 and $17.5 billion for fiscal year 2008. The system
also provides data to the General Services Administration’s Federal Procurement Data System –
Next Generation (FPDS-NG) to support congressional reporting and public access to acquisition
data. The ICMS populates the OAM Data Mart which provides reporting acquisition activities,
and can assist in managing procurement operations, and assists Program Offices in complying
with set-aside requirements. Data edit and validation checks have been built into the ICMS to
help ensure the accuracy of data that users enter into the system.

Federal guidance, including the National Institute of Standards and Technology (NIST) and the
Office of Management and Budget (OMB), requires EPA to consistently apply data entry
controls to ensure the integrity of their information technology systems and data, and to
accurately report contractual actions to the FPDS. Specifically, OMB Circular A-127, Financial
Management Systems, states that internal controls over data entry and transaction processing
shall be applied consistently throughout the system to ensure the validity of information. NIST
Special Publication 800-30, Risk Management Guide for Information Technology Systems, states
that system and information owners are responsible for ensuring that proper controls are in place
to address integrity of data they own. OMB M-06-28, Reporting Small Business Contracting
Information, states that each agency and department is responsible for submitting accurate data
to FPDS and verifying the accuracy of such data. Lastly, Federal Acquisition Regulation (FAR)
4.604(a) holds the Senior Procurement Executive and head of the contracting activity responsible
for monitoring a process that ensures accurate reporting of contractual actions to FPDS.

The EPA Office of Acquisition Management, Information Technology Service Center (ITSC) is
responsible for supporting the ICMS application, associated edit and validation checks, and
system documentation. OAM-ITSC is based in Washington, DC, with a smaller number of staff
residing in Research Triangle Park, North Carolina, and is in the process of replacing ICMS with
the EPA Acquisition System (EAS), a commercial off-the-shelf (COTS) acquisition system. As
part of the implementation process, data residing in ICMS will be migrated to the EAS.

Scope and Methodology
We conducted our review in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient and appropriate

                                                1

                                                                                         10-P-0144


evidence to provide a reasonable basis for our findings and conclusions based on the audit
objectives. Additionally, we used the guidance contained in Government Accountability Office
(GAO) Guidance for Assessing the Reliability of Computer-Processed Data for evaluating the
database processes. The evidence obtained from our audit tests and processes provides a
reasonable basis for our findings and conclusions.

From the 1,552 ICMS database fields, we identified 207 fields that are considered critical high-
risk fields within the ICMS database. The fields were chosen due to their Financial, Compliance
or Operational significance. This listing was further refined to identify 79 Financial and
Compliance fields, for purposes of testing. Williams Adley defined critical high-risk fields
utilizing the following criteria:

   •	 Financial - Data that are critical to the accurate recording of monetary amounts for
      contract solicitations, awards, contract documents, contract modifications, and task
      orders/delivery orders.
   •	 Compliance - Data that are critical to program office compliance with federal laws and
      regulations, Federal Acquisition Regulations (FAR), the Federal Acquisition
      Streamlining Act (FASA), the Federal Acquisition Reform Act (FARA), and the Office
      of Federal Procurement Policy Act as amended Competition in Contracting Act of 1984
      (41 USC); and EPA procurement and acquisition policies and procedures, including set-
      asides for small business and socio-economic classes.

Williams Adley obtained a data extract from the ICMS database in September 2008 and
imported all records for the 79 Financial and Compliance fields into a computer-assisted auditing
tool to prepare for testing. Edit and validation checks for each of the 79 fields were identified
from the current ICMS data dictionary dated February 28, 2005, and an Oracle field attributes
document OAM provided. Williams Adley performed testing to evaluate record compliance
with the data dictionary and database defined edit and validation checks for each of the 79 fields.
Testing included, but was not limited to, evaluation of the following:
   •	   Maximum number of characters
   •	   Null values (mandatory vs. nonmandatory fields)
   •	   Data Type (alpha numeric, character, numeric, date)
   •	   Evaluation of positive, negative, and zero entries
   •	   Evaluation of Max values, variance, and standard deviation


Williams Adley inquired with OAM-ITSC to obtain clarification and assurance to our
understanding of the edit and validation checks contained in the data dictionary. This resulted in
requesting OAM-ITSC to provide updated edit and validation checks for the 79 subject fields.
We performed tests of the data contained in each field to evaluate record compliance with the
OAM-ITSC defined checks for each of the 79 fields. Williams Adley then performed a
comparison between OAM-ITSC provided checks and the data dictionary to identify variances
between the data dictionary and current checks. Lastly, we reviewed the data statistics to
identify anomalous records.




                                                 2

                                                                                         10-P-0144


Findings
The ICMS data contains exceptions to data quality rules defined in the ICMS data dictionary or
OAM-defined system checks. ICMS data also contain anomalies that cast suspicion over the
validity of processed transactions. These anomalies include transactions processed on
nonstandard workdays and dollar values with unusually high values. Furthermore, discrepancies
noted between ITSC-defined system edit and validation checks and the ICMS data dictionary
call into question what actual information should be entered into ICMS for certain fields. Data
integrity within the ICMS needs strengthening to increase its (1) reliability for management
reporting and (2) accuracy before suspected errors are transferred into EPA’s new acquisition
system.

These weaknesses exist in part due to:

    •	 A breakdown in the process for controlling data entry, which are necessary to control
       data input;
    •	 Lack of identifying and implementing edit and validation checks during system

       implementation; and 

    •	 Inconsistent documenting of edit and validation checks in the ICMS data dictionary as
       data requirements change.

Sixty-four percent
(50 of 79) of the
ICMS fields passed                   ICMS Data Errors By Number of
all four data integrity                      Tests Failed
tests. The remaining
data fields failed at
least one or more          60                                                          50
tests. The noted           50
graph depicts the          40
breakdown of ICMS          30
data field errors by                  15
                           20                           13
the number of tests
failed. Appendices         10                                           1
A through D provide         0
the details for each               Failed 1           Failed 2     Failed 3        No Errors
test performed and                  Tests              Tests        Tests
the listing of fields
which failed the
particular test.

These conditions have the potential of reducing EPA management’s ability to rely on ICMS data
for decision making purposes, due to possible inaccuracies in reporting and output data. As a
critical application used to support acquisition activities for all program offices of EPA, as well
for reporting to the General Service Administration’s (GSA’s) FPDS-NG management emphasis
is needed to address these data integrity issues in a comprehensive manner.

                                                 3

                                                                                       10-P-0144




As noted during our fieldwork, EPA is replacing ICMS with a new acquisition system called the
EPA Acquisition System (EAS). While it may not be practical for EPA to address these
weaknesses within ICMS, EPA management should take proactive steps to strengthen its data
integrity processes so these similar weaknesses do not exist in the EAS.

Recommendations
Williams, Adley & Company, LLP, recommends that the Director, Office of Acquisition
Management, within the Office of Administration and Resources Management:

   1.	 Take immediate action to implement recommendations to strengthen plans for migrating
       data from the ICMS to the EAS as outlined in Office of Inspector General Quick
       Reaction Report No. 10-P-0071, Plans to Migrate Data to the New EPA Acquisition
       System Need Improvement.

   2.	 Conduct and document a review of the EAS application’s data quality controls to ensure
       all required edit checks are identified and recorded in the EAS system documentation and
       implemented in the system.

   3.	 Conduct and document a review of EAS system development and program change
       control procedures to ensure the EAS data dictionary is updated as database fields, and
       corresponding edit and validation checks are added or modified within the system.
       Implement all needed changes to the procedures.

Agency Comments and OIG Evaluation
In general, EPA agreed with our findings and recommendations. However, EPA felt that the
report did not accurately reflect the Agency's responsibilities for maintaining the system
documentation, since the new acquisition is built from a commercial-off-the-shelf product. While
we agree that EPA has limited responsibility for maintaining the manufacturer's portion of the
system software, EPA has taken significant steps to either configure the software to meet its
needs or build interfaces so the software could work with existing EPA applications. Therefore,
to the extent that EPA engages in these activities, it is incumbent upon management to ensure it
has effective control processes in place to capture and document these changes in the EAS
system documentation.




                                               4

                                                                                                                                            10-P-0144




                                Status of Recommendations and
                                  Potential Monetary Benefits


                                                                                                                                  POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                                BENEFITS (in $000s)

                                                                                                                      Planned
    Rec.   Page                                                                                                      Completion   Claimed     Agreed To
    No.     No.                           Subject                        Status1          Action Official               Date      Amount       Amount

     1       4     Take immediate action to implement                      O       Director, Office of Acquisition 11/15/2010
                   recommendations to strengthen plans for migrating                  Management, within the
                   data from the ICMS to the EAS as outlined in Office             Office of Administration and
                   of Inspector General Quick Reaction Report No.                    Resources Management
                   10-P-0071, Plans to Migrate Data to the New EPA
                   Acquisition System Need Improvement.

     2       4     Conduct and document a review of the EAS data           O       Director, Office of Acquisition
                   quality controls to ensure all required edit checks                Management, within the
                   are identified and recorded in the EAS system                   Office of Administration and
                   documentation and implemented in the system.                      Resources Management

     3       4     Conduct and document a review of EAS system             O       Director, Office of Acquisition 10/01/2010
                   development and program change control                             Management, within the
                   procedures to ensure the EAS data dictionary is                 Office of Administration and
                   updated as database fields, and corresponding edit                Resources Management
                   and validation checks are added or modified within
                   the system. Implement all needed changes to the
                   procedures.




1   O = recommendation is open with agreed-to corrective actions pending
    C = recommendation is closed with all agreed-to actions completed
    U = recommendation is undecided with resolution efforts in progress




                                                                               5

                                                                                                     10-P-0144


                                                                                                Appendix A

                Exceptions to Data Dictionary Defined 

                      Edit & Validation Checks 

Our testing of the 79 sampled critical fields, which contain varying total records, revealed a total
of 9 data fields with records in non-compliance with data dictionary-defined edit and validation
checks. Both Financial and Compliance related fields were included in these exceptions. These
errors as presented below indicate that exceptions exist throughout the ICMS database.
However, the listing of the discrepancies does not indicate potential or actual risk. The total
number of records is also not an indicator of risk or importance of the field. Testing was
performed only to identify the discrepancy existence. These exceptions are listed as noted
exceptions from the sample selected. Testing did not measure the level of impact caused by
these exceptions and thus each field must be weighted equally in impact to overall operations of
the system. As noted in the table, these failures were due to one or more of the following
conditions:

•     Duplicate records
•     Non-existent reference table
•     Zero values
•     Non-text character
•     Gaps in sequential values
•     Non-permissible numerical values

Field error rates were calculated based on the total exceptions and total record count per field
tested. The error rates ranged from 0.002 percent to 100 percent.


                                                       Edit /                                    Total
                                                   Validation        Nature of     Number of    Record     Error Rate
  Table         Field       Full Field Name           Check         Exceptions     Exceptions   Count      Percentage
 TGPF      GPF_EST_CST     Government            Reference        No existing             116        116     100%
                           Property Facilities   table            reference
                           Estimated Cost
 TC        SDB_PREF_PRG    Contract Small        Unique key       Multiple gaps         4,324      4,324     100%
           RM_CD           Disadvantaged         and sequential   in sequence
                           Business Program                       and duplicates
                           Code



 TCLST     CLST_ID_CD      Close-Out             Unique           Multiple gaps         3,487      3,601    96.83%
                           Identification        sequential key   in sequence
                           Code                                   and duplicates




                                                        6

                                                                                                 10-P-0144



                                                Edit /                                       Total
                                             Validation         Nature of      Number of    Record     Error Rate
 Table       Field       Full Field Name        Check          Exceptions      Exceptions   Count      Percentage
TASG     FULL_INCR_CD   Full/              No zero values    Zero values           16,334     46,964    34.78%
                        Incrementally-     permissible,      found.
                        Funded             nulls (blanks)
                        Assignment Type    are allowed.



TCEA     CEA_ID_NBR     Cost Element       Unique key        Multiple gaps         16,440     60,757    27.06%
                        Account            and sequential.   in sequence
                        Identification                       and duplicates.
                        Number



TOBL     OBL_ID_NBR     Obligation         Unique            Multiple gaps         35,674    196,718    18.13%
                        Identification     sequential key.   in sequence
                        Number                               and duplicates.




TCAB     CAB_ID_NBR     Cost Aggregate     Unique key        Multiple gaps          4,000     58,149     6.88%
                        Budget             and sequential.   in sequence
                        Identification                       and duplicates.
                        Number



TASG     FAIR_OPTNTY_   Multiple Award     Range values      Values of 6             468      46,964     1.00%
         CD             Contract Fair      between 1 to 5.   and 7 found.
                        Opportunity Code


TCEA     CEA_NAME       Cost Element       All text          Nontext                   1      60,757    0.002%
                        Account Name       characters.       character.




                                                  7

                                                                                                        10-P-0144


                                                                                                  Appendix B

       Exceptions to OAM Information Technology 

     Service Center Defined Edit & Validation Checks

Our testing of the 79 sampled critical fields revealed 5 fields in noncompliance with current edit
and validation checks provided by OAM-ITSC during audit fieldwork. Current edit and
validation checks were requested of OAM-ITSC during fieldwork, since the data dictionary had
not been updated since February 28, 2005. As noted in the below table, these failures were due
to one or more of the following conditions:

•   Null values (i.e., blanks)
•   State codes in a ZIP Code-defined field
•   Incorrect OAM-defined resource values

Actual error rates for these exceptions, most close to one hundred percent, were less definable
due to the nature of their causes, and thus were replaced with a description of the condition. It
was noted that both Financial and Compliance related fields were included in the listing of
exceptions.


                                                             Edit /
                                                          Validation        Nature of       Description of Rule Violation
    Table              Field          Full Field Name       Check          Exceptions                  Conditions
TSF_1442       SF_1442_SBA_STATE     Standard Form       Valid State     All values are     OAM provided the edit check
                                     1442 Small          code.           null.              rule that the set is based on
                                     Business                                               ZIP Codes. Testing showed
                                     Administration                                         that no ZIP Codes exist in the
                                     State                                                  data field; therefore the edit
                                                                                            check rule does not
                                                                                            appropriately define the field.
                                                                                            Testing for ZIP Code
                                                                                            provides a 100% error rate for
                                                                                            all entries in all tables.
TPA_ORG_A      ADDR_ST               Procurement         Valid ZIP       All data entries   OAM provided the edit check
DDR_ASS                              Activity            Code.           are State codes    rule that the set is based on
                                     Organization                        and one zero       ZIP Codes. Testing showed
                                     Address                             value entry.       that no ZIP Codes exist in the
                                     Association State                                      data field; therefore the edit
                                                                                            check rule does not
                                                                                            appropriately define the field.
                                                                                            Testing for ZIP Code
                                                                                            provides a 100% error rate for
                                                                                            all entries in all tables.

TASG           ASG_LOE               Assignment Level    Reference to    OAM-defined        OAM provided the edit check
                                     of Effort           other fields.   field resource     rule that if this is a deliver
                                                                         values did not     order or task order, then value
                                                                         match              must be ≤ to
                                                                         ASG_LOE            99,999,999,999.99, and value
                                                                         field values.      must be ≤ the sum of all.




                                                    8

                                                                                             10-P-0144



                                                  Edit /
                                                Validation     Nature of        Description of Rule Violation
   Table         Field    Full Field Name        Check         Exceptions       Conditions
                                                                                Allocated Delivery Order
                                                                                (DO)/Task Order (TO) totals
                                                                                (CAB_AMT) for this order.
                                                                                Testing found inconsistencies
                                                                                in multiple table entries for
                                                                                CAB_AMT sums. OAM
                                                                                explained these sums are
                                                                                user- entered. Error rates
                                                                                differed depending on the
                                                                                table tested for entry. All
                                                                                table fields contained errors.
TCAB       CAB_AMT       Cost Aggregate        Reference to    OAM-defined      OAM provided the edit check
                         Budget Amount         other fields.   field resource   that the field must be ≤ to the
                                                               values did not   parent cost category's amount
                                                               match            (CAD_CST_AMT). In
                                                               CAB_AMT          testing, many records were
                                                               field values.    found exceeding these
                                                                                defined values (the number of
                                                                                entries differed depending on
                                                                                the table tested; multiple
                                                                                tables exist for this field). All
                                                                                tables with the parent field
                                                                                showed multiple values
                                                                                exceeding the edit check rule.
                                                                                All table fields contained
                                                                                errors.
TCEB       CEB_AMT       Cost Element          Reference to    OAM-defined      OAM provided the edit check
                         Budget Amount         other fields.   field resource   rule that the field must be ≤ to
                                                               values did not   the parent line item's amount
                                                               match            (CEA_AMT). The parent
                                                               CEB_AMT          exists in multiple tables and
                                                               field values.    some errors were found in
                                                                                tests. All table fields
                                                                                contained errors.




                                          9

                                                                                                     10-P-0144


                                                                                               Appendix C

                                   Data Anomalies
Our testing of the 79 fields included identifying data outside the expected value range. For
numerical fields, that included evaluating maximum values noted in the record set. Date fields
were analyzed for the feasibility of the day of the week the dates were entered. In follow-up
interviews on these anomalies, OAM program management could not explain these
inconsistencies.

These rationality tests identified 13 fields with anomalous records, which fell into one of the
following categories:

•     Date entered as a Sunday
•     Unusually large monetary amount

It was noted that both Financial and Compliance related fields were included in this listing of
exceptions.



   Table            Field              Full Field Name        Nature of Exceptions      OAM-Summarized Response
 TASG        ASG_FNL_PYM_DT        Assignment Final          22 Sunday dates          The user enters dates and would
                                   Payment Date                                       need to verify them.




 TASG        ASG_LOE               Assignment Level Of       The maximum value for    The user enters values and would
                                   Effort                    one of the entries was   need to verify them.
                                                             1,129,905,413.44.




 TCAD        CAD_OPTL_AMT          Contract Aggregate Data   The maximum value for    This is expressing an essentially
                                   Optional Amount           one of the entries was   infinite cost ceiling on a GSA
                                                             9,000,000,000.00.        Schedule contract (GS-02F-
                                                                                      0211R). The contracting officer
                                                                                      that entered this was probably
                                                                                      trying to make sure there was no
                                                                                      cap on the ceiling that could be
                                                                                      used on orders against this
                                                                                      schedule contract.
 TCEA        CEA_AMT               Cost Element Account      The maximum value for    The user enters values and would
                                   Amount                    one of the entries was   need to verify them.
                                                             999,999,999.

 TC          C_EST_AMT             Contract Estimated        The maximum value for    The user enters values and would
                                   Amount                    one of the entries was   need to verify them.
                                                             50,000,000,000.00.




                                                   10 

                                                                                             10-P-0144




 Table         Field          Full Field Name         Nature of Exceptions      OAM-Summarized Response
TEFWA    EFWA_CNTRCR_CST    EPA Work Assignment       The maximum value       The user enters values and would
                               Form Proposed         for one of the entries   need to verify them.
                               Contractor Cost       was 3,385,794,743.00.


TMDFCN   MDFCN_MAX_PTNTL_   Modification Maximum      The maximum value       This is the sum of user-entered
         VAL_CHNG           Potential Value Change   for one of the entries   values, and would need to be
                                                     was 400,000,000.00.      verified by the user who entered
                                                                              them.



TPOP     POP_MAX_AMT        Period of Performance    The maximum value for    The user enters values and would
                            Maximum Amount           one of the entries was   need to verify them.
                                                     999999999.00.



TPOP     POP_MIN_AMT        Period of Performance    The maximum value for    The user enters values and would
                            Minimum Amount           one of the entries was   need to verify them.
                                                     50676590.00.


TSYNPS   SYNPS_CST_AMT      Synopsis Cost Amount     The maximum value for    This is the sum of user-entered
                                                     one of the entries was   values, and would need to be
                                                     699337192.00.            verified by the user who entered
                                                                              them.




TVPR     VPR_EST_AMT        Vendor Procurement       The maximum value for    The user enters values and would
                            Role Estimated Amount    one of the entries was   need to verify them.
                                                     18263072.00.


TVPR     VPR_MAX_AMT        Vendor Procurement       The maximum value for    The user enters values and would
                            Role Maximum Amount      one of the entries was   need to verify them.
                                                     51443860.00.
TCEA     CEA_MAX            Cost Element Account     The maximum value for    The user enters values and would
                            Maximum                  one of the entries was   need to verify them.
                                                     999999999.00.




                                            11 

                                                                                                            10-P-0144


                                                                                                        Appendix D

                   Edit & Validation Checks that 

                Require Updating in Data Dictionary

Gap analysis performed between data dictionary-defined edit and validation checks and
OAM-provided edit and validation checks revealed 17 fields with discrepancies, representing a
divide between edit and validation checks verified by OAM to be in place versus what is actually
documented in the data dictionary.

It was noted that both Financial and Compliance related fields were included in this listing of
exceptions.


                                     Full Field         OAM-defined Edit /            Data Dictionary        Description of
  Table           Field               Name               Validation Check               parameters            Discrepancy
TC         SDB_PREF_PRGRM_CD      Contract Small   Drop-down list selection;        A system generated      Data dictionary
                                  Disadvantaged    this field is no longer          unique sequential       has no statement
                                  Business         actively used by the             number                  about disabling
                                  Program Code     application.                                             the field,
                                                                                                            inactivity, or
                                                                                                            non-use


TVO        VO_CIS_SML_SFX         Vendor Office    No longer used by ICMS. It       Any valid CIS           Data dictionary
                                  CIS Small        was part of an interface         Code                    has no statement
                                  Business         with an EPA information                                  about disabling
                                  Suffix           system that was retired in                               the field,
                                                   2002.                                                    inactivity, or
                                                                                                            non-use

TVPR       SMLBS_SZE_CD           Small Business   This is a nonmandatory           Positive integer.       Data dictionary
                                  Size Code        field that has evidently                                 has no statement
                                                   never been used.                                         about disabling
                                                                                                            the field,
                                                                                                            inactivity, or
                                                                                                            non-use

TCAB       CAB_ID_NBR             Cost Aggregate   This column alone is not a       Sequential number       Duplication
                                  Budget           primary key, rather it is part   that uniquely           errors and
                                  Identification   of a composite key               identifies a specific   differences on
                                  Number           (C_ID_CD, ASG_ID_NBR,            cost aggregate          data source.
                                                   CAB_ID_NBR). Its value           budget item within
                                                   is system-generated by an        an assignment.
                                                   Oracle sequence object           Physically derived
                                                   (number generator). There        for performance
                                                   should be gaps in the            enhancement
                                                   numbers. Duplicates are          purposes.
                                                   acceptable, and are caused
                                                   because 13 original ICMS
                                                   databases were merged into
                                                   the current production
                                                   database.




                                                   12 

                                                                                                   10-P-0144



                            Full Field        OAM-defined Edit /             Data Dictionary        Description of
  Table          Field        Name              Validation Check                parameters           Discrepancy
TCEA      CEA_ID_NBR     Cost Element     This column alone is not a       Sequential number       Duplication
                         Account          primary key, rather it is part   that uniquely           errors and
                         Identification   of a composite key               identifies a specific   differences on
                         Number           (C_ID_CD, POP_ID_NBR,            cost element            data source.
                                          CEA_ID_NBR). Its value is        account within a
                                          system generated by an           period of
                                          Oracle sequence object           performance for a
                                          (number generator). There        procurement.
                                          should be gaps in the
                                          numbers. Duplicates are
                                          acceptable, and are caused
                                          because 13 original ICMS
                                          databases were merged into
                                          the current production
                                          database.




TCLST     CLST_ID_CD     Close-Out        This column alone is not a       Unique number           Duplication
                         Identification   primary key, rather it is part   assigned to close       errors and
                         Code             of a composite key               out records.            differences on
                                          (C_ID_CD, POP_ID_NBR,                                    data source.
                                          CEA_ID_NBR). Its value
                                          is system generated by an
                                          Oracle sequence object
                                          (number generator). There
                                          should be gaps in the
                                          numbers. Duplicates are
                                          acceptable, and are caused
                                          because 13 original ICMS
                                          databases were merged into
                                          the current production
                                          database.

TGPF      GPF_EST_CST    Government       The text "Foreign key to         Any valid dollar        Field sources
                         Property         Government Property              amount. Foreign         different.
                         Facilities       Facilities Type reference        key to Government
                         Estimated Cost   table TGPF_TP_REF" in            Property Facilities
                                          the data dictionary is           Type reference
                                          incorrect and should be          table
                                          removed. The source of           TGPF_TP_REF.
                                          this information is a user-
                                          entered number with no edit
                                          checks.




                                          13 

                                                                                                       10-P-0144



                                 Full Field          OAM defined Edit /            Data Dictionary      Description of
  Table            Field           Name               Validation Check                parameters         Discrepancy
TASG       FAIR_OPTNTY_CD      Multiple          Additional choices have         The code              Additional
                               Award             been added to                   representing the      codes 6 and 7
                               Contract Fair     TFAIR_OPTNTY_REF.               Multiple Award        added and not
                               Opportunity       Valid values are null or 1-7.   Contract Fair         documented.
                               Code                                              Opportunity Code.
                                                                                 Corresponds to
                                                                                 TFAIR_OPTNTY_
                                                                                 REF.ID_CD. Valid
                                                                                 codes are 1 through
                                                                                 5. The
                                                                                 TFAIR_OPTNTY_
                                                                                 REF.DSCR values
                                                                                 that correspond to
                                                                                 codes 1 through 5
                                                                                 are: Fair
                                                                                 Opportunity
                                                                                 Process, Urgency,
                                                                                 One/Unique
                                                                                 Source, Follow On
                                                                                 Order, or Minimum
                                                                                 Guarantee.
TC         SDB_PREF_PRGRM_CD   Contract Small    This is a foreign key to        Foreign key to        Not allowing
                               Disadvantaged     TSDB_PREF_PRGRM_RE              TSDB_PREF_PRG         zero values is
                               Business          F.ID_CD. There should not       RM_REF.ID_CD.         not documented
                               Program Code      be any zero values. Values      Unique sequential     in the data
                                                 should repeat. Some values      number.               dictionary.
                                                 should be null.

TASG       FULL_INCR_CD        Full/Increment    There should not be any         Any permissible       Not allowing
                               ally Funded       zero values.                    numeric code value    zero values is
                               Assignment                                        contained in the      not documented
                               Type                                              ID_CD field of the    in the data
                                                                                 TFULL_INCR_RE         dictionary.
                                                                                 F table.
TMDFCN     MDFCN_MAX_PTNTL_    Modification      This is the sum of user-        Any valid number.     Not specifically
           VAL_CHNG            Maximum           entered values.                                       defined as user-
                               Potential Value                                                         entered or a sum
                               Change                                                                  in the data
                                                                                                       dictionary

TOBL       OBL_ID_NBR          Obligation        The composite of                Unique in             Differences
                               Identification    C_ID_CD, ASG_ID_NBR,            combination with      include no
                               Number            and MDFCN_ID_NBR                PR_CD and             uniqueness and
                                                 make this field unique. The     COM_ID_NBR.           the wrong fields
                                                 field is not a unique key.                            listed.


TSF_1442   SF_1442_SBA_STATE   Standard Form     Valid State code.               Any valid US state    No mention of
                               1442 Small                                        abbreviation.         entering ZIP
                               Business                                                                Codes to receive
                               Administration                                                          the valid US
                               State                                                                   state
                                                                                                       abbreviations




                                                 14 

                                                                                              10-P-0144



                            Full Field         OAM defined Edit /          Data Dictionary     Description of
  Table          Field        Name              Validation Check             parameters         Discrepancy
TPA_OR    ADDR_ST        Standard Form     Valid ZIP Code.               Any valid two        Neither OAM
G_ADDR                   1449                                            character US State   nor the data
_ASS                     Administered                                    abbreviation.        dictionary
                         By Standard                                                          mention the
                         Address                                                              existence of zero
                         Indicator                                                            values
TASG      ASG_LOE        Assignment        If this is a DO or TO, then   Any valid number.    OAM provides
                         Level Of Effort   value must be less than or                         more specificity
                                           equal to 99,999,999,999.99,                        than exists in the
                                           and value must be ≤l to the                        data dictionary.
                                           sum of all allocated DO/TO
                                           totals (CAB_AMT) for this
                                           order.



TCAB      CAB_AMT        Cost Aggregate    Field must be ≤ to the        Any valid number.    OAM provides
                         Budget            parent cost category's                             more specificity
                         Amount            amount                                             than exists in the
                                           (CAD_CST_AMT).                                     data dictionary.


TCEB      CEB_AMT        Cost Element      Field must be ≤ to the        Any valid number.    OAM provides
                         Budget            parent line item's amount                          more specificity
                         Amount            (CEA_AMT).                                         than exists in the
                                                                                              data dictionary.




                                           15 

                                                                                         10-P-0144


                                                                                     Appendix E

                                 Agency Response
                                         April 16, 2010


MEMORANDUM

SUBJECT:       Response to Office of Inspector General (OIG) Draft Report: Improved Data
               Integrity Needed for the Integrated Contracts Management System (ICMS)

FROM:          John C. Gherardini III, Acting Director
               Office of Acquisition Management

TO:            Rudolph M. Brevard, Director
               Information Resources Management Assessments
               Office of Inspector General

        Thank you for the opportunity to comment on the draft report entitled “Improved Data
Integrity Needed for the Integrated Contracts Management System (ICMS),” dated
February 26, 2010. We are in general agreement with the findings and recommendations and
will ensure all corrective actions are completed as required.

General Comments

        The Office of Acquisition Management (OAM) agrees that ICMS has identified data
integrity issues. The U.S. Environmental Protection Agency (EPA) Acquisition System (EAS) is
being implemented to increase data integrity associated with Agency acquisitions and to ensure
that similar weaknesses do not exist in the new system. Due to the implementation of EAS and
the unavailability of the specific record details associated with the errors identified in Appendix
A, B, C & D of the report, a review of all the data discrepancies to ensure full agreement of all
the errors found would be very difficult.

Comments on Recommendations:

Recommendation 1: Take immediate actions to strengthen plans for migrating data from
ICMS to EAS as in outlined Office of Inspector General Quick Reaction report, “Plans to
Migrate Data to the New EPA Acquisition System Need Improvement.”

Response: In reference to the Quick Reaction reports recommendations to strengthen plans for
migrating data from ICMS to EAS, OAM has taken active steps to ensure that data migration
from ICMS to EAS is effective by:

   -   Ensuring the continuation of the two tier review for migrated data for active and inactive
       contracts.

                                                16 

                                                                                       10-P-0144


   -   Ensuring that appropriate individuals participate in the EAS Migrated Data Review
       Orientations. Several meetings and training sessions have already taken place in
       headquarters and the regions.
   -   Developing a plan to ensure that closed contracts are reviewed for accuracy. OAM will
       use the existing verification and validation annual exercise to review and ensure closed
       contract dates are accurate in the system. This task will be completed by 11/15/2010.

Recommendation 2: Conduct and document a review of the EAS data quality controls to
ensure all required edit checks are identified and recorded in the EAS system
documentation and implemented in the system.

Response: This process was completed through EAS Requirements, Testing and Deployment
Planning. Our concern with the report, as written, appears to reveal a lack of understanding
associated with the Agency’s ability to easily modify documentation and/or codes associated
with a Commercial-Off-The-Shelf (COTS) package. The Office of Management and Budget has
encouraged agencies to limit customization in an effort to minimize costs to the federal
government. PRISM, which is the COTS package associated with EAS, is used in acquisition
offices across the federal government. Modifications such as edit checks and controls have been
designed into the system based on feedback not only from EPA but other federal agencies as
well. Documentation associated with PRISM is the responsibility of the PRISM vendor. As
changes are made to the system, the vendor is responsible and does provide updated
documentation.

Recommendation 3: Conduct and document a review of EAS system development and
program change control procedures to ensure the EAS data dictionary is updated as
database fields, and corresponding edit and validation checks, are added or modified
within the system. Implement all needed changes to the procedures.

Response: System development and program change control procedures as it relates to the
PRISM software as well as PRISM data dictionary are out of EPA’s control and are the
responsibility of the vendor. OAM will conduct and document a review of the EAS system
development and program change control procedures as it relates to any customizations applied
for EPA. We will ensure that change control procedures clearly identify where EPA
documentation should be updated and ensure those updates are completed. This would be done
within the EAS functional configuration documentation. We have change control procedures in
place but will review them by 10/01/2010 to ensure documentation updates are included.

       Should you have any questions regarding this response, please contact me at
(202) 564-4310 or Margaret Lynch, Service Center Manager, Information Technology Service
Center at (202) 564-4605.




                                               17 

                                                                                  10-P-0144


                                                                              Appendix F

                                   Distribution

Office of the Administrator
Assistant Administrator, Office of Administration and Resources Management
Agency Follow-up Official (the Chief Financial Officer)
Agency Follow-up Coordinator
Deputy Director, Office of Acquisition Management, Office of Administration and
       Resources Management
General Counsel
Associate Administrator for Congressional and Intergovernmental Affairs
Associate Administrator for Public Affairs
Audit Follow-up Coordinator, Office of Administration and Resources Management
Audit Follow-up Coordinator, Office of Acquisition Management,
       Office of Administration and Resources Management
Acting Inspector General




                                            18 

